                                                                UNCLASSIFIED
    Improved Contract
    Monitoring
                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                      Office of Audits



                                 Improved Contract Documentation and

                                Monitoring by the Regional Procurement

                               Support Office Are Needed for Construction 

                                 Projects Associated With the President’s

                               Emergency Plan for AIDS Relief (PEPFAR)



                                         Report Number AUD/IP-12-03, November 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                            UNCLASSIFIED




                         Spotlight:  Improved Contract Documentation by the Regional
                        Support Office Are Needed for Construction Projects Associated With
                        the Presidents Emergency Plan for AIDS Relief (PEPFAR)
                        O f f i c e of In s pect o r Gene r al
                        AU D / IP-1 2 · 0 3 Oc t o ber 2 011



 Why OIG Conducted This Audit                                        Objective
The Department of State OIG is requ ired, under the Tom Lan-         The primary objective of this review was to determine
tos and Henry J. Hyde United States Global Leadership Against        whether RPSO appropriately awarded and monitored PEPFAR
HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of           construction contracts. The results of the OIG's work are be-
2008, to conduct financia l audits, inspections, and perform -       ing reported in two reports. In June 2011, OIG issued AUD/IP-
ance reviews of PEPFAR. This review focused on 100 of 145            11-14 Audit of Construction and Transfer of Ownership of the
con tracts and task orders that the Regional Procurem ent Sup-       President's Emergency Plan for AIDS Relief (PEPFARj Overseas
port Office in Frankfurt, Germany (RPSO) awarded for PEPFAR          Construction Projects, a report that focused on the Depart-
construction projects between FY 2003 and the first quarter of       ment's Office of the U.S. Global AIDS Coordinator's oversight
FY 2010. The 100 procurements totaled $39,207,381 and                of PEPFAR properties
were for the design, construction, and monitoring of construc-
tion of clinics, labs, and other health facilities throu ghout Af-
rica .



What OIG Found
OIG fo und that RPSO did not comply with requirements in the Federal Acquisition Regulation or the Department's Contracti ng
Officer's Representative (COR) Handbook for maintaining contract files t o demonstrate performance of required actions in
awarding and monitoring PEP FAR construction contracts. Specifically, contract files OIG reviewed were missing evidence of one
or more ofthe following required contract award actions: obtaining Independent Government Cost Estimates, publicizing t he
solicitation and requirements, and delegating COR responsibilities. In 38 of the 100 contracts and task orders reviewed by OIG,
RPSO also inappropriately included contingency costs of $2,126,148. After the contracts were awarded, contract files in Tanza-
nia and Uganda did not always contain adeq uate documentation showing required monitoring actions: including obt aining in-
spection reports or ensuring inspection reports received met contract requirements; conducting site visits; and reviewing pro-
gress payments.

RPSO did not always document essential contract award actions, so the Department cannot be assured these actions were al-
ways performed for PEPFAR construction contracts. Because of inadequate monitoring, the Department cannot be assured that
PEPFAR buildings were properly constructed and that payments to co ntractors were for work actually completed. Since RPSO
contracting officers are ultimately responsib le for ensuring adequate monitoring, RPSO should have ensured that qualified per-
sonnel were available to monitor contracts, as was done in Ethiopia with the employment of a civil engineer.




OIG Recommended
RPSO should instruct its staff to determine whether required contract award actions for PEPFAR co nstruction contracts were
properly performed and documented; stop including contin gency costs in PEPFAR construction contracts and task or ders; re-
view existing PEPFAR construction contracts and reclaim contingency costs inappropriately included in any contracts, as practi-
cable; instruct its procurement staff to fully document contract monitoring to assess whether contractor performance is satis-
factory; and requ ire posts with substantial planned costs for PEPFAR construction projects to obtain an advisor with construc-
tion expertise to monitor contracts. The Department agreed with all frve of the report's recommendat ions and has t aken ac-
tions to address them. As a result, DIG closed one recommendation and considers the other four recommendations resolved,
pending evidence that further action s have been taken.

                                                         UNCLASSIFIED
                                                             United States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office o/Inspector General




                                         PREFACE


     This report was prepared by th~ Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors .

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                  UNCLASSIFIED


Acronyms


AIDS         acquired immune deficiency syndrome
A/LM/AQM     Office of Acquisitions Management, Bureau of Administration
CDC          Centers for Disease Control and Prevention
CMS          construction monitoring services
COR          contracting officer’s representative
Department   Department of State
FAH          Foreign Affairs Handbook
FAR          Federal Acquisition Regulation
HHS          Department of Health and Human Services
HIV          human immunodeficiency virus
IGCE         Independent Government Cost Estimate
OIG          Office of Inspector General
PEPFAR       President’s Emergency Plan for AIDS Relief
RPSO         Regional Procurement Support Office
S/GAC        Office of the U.S. Global AIDS Coordinator




                                  UNCLASSIFIED

                                                           UNCLASSIFIED



                                                        Table of Contents 

Section                                                                                                                                         Page


Executive Summary .........................................................................................................................1 


Background           ..................................................................................................................................2 


Objective            ..................................................................................................................................5 


Results of Review ..........................................................................................................................5 


          Contract Files for PEPFAR Construction Contract Award Actions Were Incomplete .......5 

          Contingency Costs Were Inappropriately Included in Firm-Fixed-Price Contracts ............8 

          Incomplete Contract Monitoring Leaves PEPFAR Construction Projects at Risk ...........10 


Best Practice – Standard Design for PEPFAR Construction .......................................................15 


List of Recommendations ..............................................................................................................17 


Appendices 


          A. Scope and Methodology................................................................................................18 

          B. Bureau of Administration Office of Acquisitions Management Response .................22 


Major Contributors to This Report ..............................................................................................27 





                                                           UNCLASSIFIED

                                             UNCLASSIFIED


                                         Executive Summary
        In 2003, the Regional Procurement Support Office (RPSO) in Frankfurt, Germany, began
awarding and monitoring President’s Emergency Plan for AIDS Relief (PEPFAR) construction
contracts for the Department of State (Department) and the Centers for Disease Control and
Prevention (CDC). The contracts, including associated task orders, were awarded for the design,
construction, and monitoring of the construction of hospitals, clinics, and laboratories supporting
the treatment of patients with human immunodeficiency virus/acquired immune deficiency
syndrome (HIV/AIDS) in nine countries in Africa.1 The primary objective of this review was to
determine whether RPSO appropriately awarded and monitored PEPFAR construction contracts.
The results of the Office of Inspector General’s (OIG) work are being reported in two reports.
OIG’s previous report focused on the Department’s Office of the U.S. Global AIDS
Coordinator’s oversight of the construction and transfer of PEPFAR properties.2

        OIG found that RPSO did not comply with requirements in the Federal Acquisition
Regulation (FAR) or the Department’s Contracting Officer’s Representative (COR) Handbook,
which is contained in the Foreign Affairs Handbook (FAH), for maintaining contract files to
demonstrate performance of required actions in awarding and monitoring PEPFAR construction
contracts. (Details of the methodology of OIG’s review are shown in Appendix A, “Scope and
Methodology.”) Specifically, 34 PEPFAR construction contracts3 at RPSO were missing
evidence of one or more of the following required contract award actions for three of eight
categories OIG reviewed:4 obtaining Independent Government Cost Estimates (IGCE),
publicizing the solicitation and requirements, and delegating COR responsibilities. During this
review, OIG also found that RPSO inappropriately included contingency costs in these contracts
and task orders totaling $2,126,148. Because Tanzania, Ethiopia, and Uganda were awarded
most of the contracts and task orders, OIG selected these countries for review and found that at
two of the three posts—Tanzania and Uganda—contract monitoring files did not always contain
adequate documentation showing required monitoring actions, including: obtaining inspection
reports or ensuring inspection reports received met contract requirements; conducting site visits;
and reviewing progress payments. However, OIG found that in Ethiopia, an engineer with
technical construction expertise took responsibility for most of the monitoring functions for the
U.S. Government, which resulted in better recordkeeping and more effective oversight.

        RPSO did not always document essential contract award actions, so the Department
cannot be assured that these actions were always performed for PEPFAR construction contracts.
Also, because of inadequate monitoring, the Department cannot be assured that PEPFAR
buildings were properly constructed and that payments made to contractors were for work
actually completed. Since RPSO contracting officers are ultimately responsible for ensuring

1
  The nine countries are Tanzania, Ethiopia, Uganda, Namibia, Zambia, Mozambique, Kenya, Botswana, and 

Malawi. 

2
  Audit of Construction and Transfer of Ownership of the President’s Emergency Plan for AIDS Relief (PEPFAR)

Overseas Construction Projects (AUD/IP-11-14, June 2011). 

3
  There are 66 task orders associated with the 34 contracts for a total of 100 procurement actions. 

4
  The remaining five award categories reviewed include: providing justification for other than full and open

competition, obtaining proper funding authorization, evaluating technical proposals, ensuring full and open

competition, and reviewing cost proposals. 

                                                  1
                                             UNCLASSIFIED
                                               UNCLASSIFIED


adequate monitoring, RPSO should have ensured that qualified personnel were available to
monitor contracts, as was done in Ethiopia with the employment of an engineer.

        In September 2011, OIG provided a draft of this report with five recommendations to
improve RPSO operations to the director of the Office of Acquisitions Management in the
Bureau of Administration (A/LM/AQM). Specifically, OIG recommended that RPSO instruct its
procurement staff to determine whether required contract award actions for PEPFAR
construction contracts were properly performed and documented; stop including contingency
costs in PEPFAR construction contracts and task orders unless identified contingencies arise
from presently known and existing conditions, as described in the FAR5; review existing
PEPFAR construction contracts and reclaim contingency costs inappropriately included in any
contracts as practicable; fully document contract monitoring to assess whether contractor
performance is satisfactory; and require posts with substantial planned costs for PEPFAR
construction projects to obtain a technical advisor with construction expertise to monitor
construction contracts.

       In its October 7, 2011, response to the draft report, presented in Appendix B,
A/LM/AQM agreed with all recommendations and stated it had already taken steps to address
some of the recommendations. Based on A/LM/AQM’s response, OIG considers
Recommendation 1 resolved and closed. The four remaining recommendations are considered
resolved because steps are being taken to implement them; however, they will remain open until
A/LM/AQM provides evidence that they have been fully implemented.

                                                 Background
         RPSO Frankfurt6 acquires supplies and services for U.S diplomatic posts throughout the
world. RPSO’s procurement personnel manage all stages of the procurement process, including
soliciting quotations, processing task orders, and executing and administering contracts. RPSO
has developed a specialized program for the acquisition of construction contracting services in
which it awards security upgrades, designs and builds projects, and acquires architectural and
engineering services.

         From FY 2003 through the first quarter of FY 2010,7 RPSO awarded 145 overseas
construction procurements (contracts and associated task orders) for the CDC in support of
PEPFAR. These 145 procurements, with a value totaling $56,009,736, were awarded to
construction companies in nine African countries and included laboratories, hospitals, and
clinics, as well as construction monitoring and architect and engineering services, as shown in
Figure 1.


5
  FAR 31.205-7, “Contingencies.” 

6
  Another RPSO, located in Fort Lauderdale, FL, acquires supplies and services for diplomatic posts in Latin

America, the Caribbean, and Canada. 

7
  At the beginning of FY 2010 (Nov. 4, 2009), the CDC sent a cable to posts advising the posts’ staffs to “cease and 

desist” from participating in the award of contracts for PEPFAR construction (Cable 09 CDC ATLANTA GA 7821,

“CDC Officials – Requisitioning Procurements Using State Department Funds”). This cable is detailed further in

OIG’s report AUD/IP/11-14, June 2011. 

                                                    2
                                               UNCLASSIFIED
                                                UNCLASSIFIED


         Figure 1. Regional Procurement Support Office Construction Procurements
                           Total Values By Country Awarded FY 2003 - FY 2010
                                               (in U.S. Dollars)
                                        Zambia                   Botswana
                                      3,299,140                   279,316
                               Uganda
                              4,750,490                                    Ethiopia
                                                                          16,274,205




                                                                                    Kenya
                                                                                  2,813,360
                                                                                                   Malawi
                               Tanzania                                                            175,021
                                                                                Mozambique
                              22,276,299                           Namibia       2,821,880
                                                                  3,320,025

         Source: OIG-generated from RPSO contract files.

         Of the 145 contracts and task orders RPSO awarded from FY 2003 through the first
quarter of FY 2010, OIG reviewed files at RPSO for 100 contracts and task orders,8 valued at a
total of $39,207,381: 34 contracts,9 valued at $17,492,381, and 66 associated task orders, valued
at $21,715,000. Of these 100 contract files, 59 files covered construction activities in the
countries OIG visited: 38 in Tanzania, 7 in Uganda, and 14 in Ethiopia. Of these 59 files, 29
were for construction monitoring services or design services, and 30 were for construction
activities, as shown in Table 1. (The contract files reviewed are further detailed in Appendix A.)

                         Table 1. Construction Activities for Three Posts Visited
                                                                              A & E Services
                                                              Actual               and
                             Country           Total        Construction      CMS Services *

                             Tanzania            38              18                 20
                              Uganda              7                4                 3

                              Ethiopia           14                8                 6

                               Total             59              30                 29
                          Source: OIG-generated from COR contract monitoring files.
                          *Inspection reports and site visits are not required for architectural
                          and engineering (A&E) services and contract monitoring services
                          (CMS). Therefore, for these types of procurements, OIG reviewed
                          only progress payments.




8
  Ninety-five of the 100 contracts and task orders OIG reviewed were awarded between FYs 2007 and 2009. The 

remaining five contracts were awarded outside this period: two contracts were awarded in FY 2005, two contracts 

were awarded in FY 2006, and one contract was awarded in FY 2010.

9
  The 34 contracts consisted of 21 firm-fixed-price contracts and 13 indefinite delivery/indefinite quantity contracts. 

                                                     3
                                                UNCLASSIFIED
                                            UNCLASSIFIED

        Contracting officers at RPSO issued firm-fixed-price contracts and indefinite-
delivery/indefinite-quantity contracts with fixed-price task orders for these construction
procurements. With firm-fixed-price contracts or task orders, contractors receive a fixed cost for
supplies or services not subject to any cost adjustment based on the contractor’s actual
experience.10 According to the FAR, indefinite-delivery/indefinite-quantity contracts are used
“to acquire supplies and/or services when the exact times and/or exact quantities of future
deliveries are not known at the time of contract award,”11 and individual task orders are then
issued as separate awards for individual requirements.12

        The FAR further states that the head of an office performing contracting functions must
establish files that contain the records of all contractual actions.13 The documentation should
adequately represent a complete history of transactions, showing the complete background of
decisions made at each step of the acquisition process and provide support for actions taken. The
documentation is also essential to ensure that information is available “in the event of litigation
or congressional inquiries.”

Contracting Officer’s Representative

        RPSO delegates the day-to-day monitoring of these procurements to personnel in the
field by issuing a COR delegation memorandum, which the COR is required to sign and return to
the contracting officer. The COR’s signature certifies that he or she has read and understands the
contents of the COR Handbook.

        CORs are responsible for maintaining adequate records that document the performance of
their duties. COR contract files should contain the COR delegation memorandum, a copy of the
contract, correspondence and memoranda for the record on contractor performance, records
related to the contractor’s quality control plan and results of quality control activities, the
surveillance schedule, and documentation pertaining to the COR’s acceptance of performance of
services.

Construction Monitoring Services

        For the three posts OIG visited, RPSO also awarded contracts to architectural and
engineering firms to perform construction monitoring services (CMS) for PEPFAR construction
projects.14 These CMS contracts refer to the CMS contractor as the “on-site Government
Representative.” However, the contracts OIG reviewed caution that the CMS contractor does
not have the authority to direct the activity of the construction contractor.

      According to the contracts, the CMS contractor is responsible for construction contract
monitoring and reporting on all aspects of construction, including structural, electrical,


10
   FAR 16.202-1, “Firm-Fixed-Price Contracts – Description.” 

11
   FAR 16.501-2(a), “Indefinite-Delivery Contracts.” 

12
   FAR 16.504, “Indefinite-Quantity Contracts.” 

13
   FAR 4.801(a) and (b)(1)(2)(3)(4), “Government Contract Files – General.” 

14
   CMSs were included in 36 of the 145 construction procurements awarded by RPSO.

                                                 4
                                            UNCLASSIFIED
                                             UNCLASSIFIED


mechanical, and security work. Specific required CMS actions include, but are not limited to,
the following:

            Visiting the site periodically and monitoring the performance of the construction
             contractor.
            Observing, inspecting, and evaluating the construction work.
            Enforcing quality control requirements.
            Identifying and notifying the COR of potential schedule slippages.
            Reviewing the construction contractor’s monthly progress payment requests and
             recommending appropriate action to the COR.
            Preparing and submitting timely and accurate weekly and monthly progress reports to
             the COR.
            Providing clear and comprehensive photographs that depict the entire property with
             the date and location (no fewer than five pictures to be taken and submitted with each
             report).

        CMS contractors are required to submit written reports that must include date and time of
the visit, weather conditions and temperatures, persons met on-site the day of inspection, workers
present, and any item found deficient, along with a recommended corrective action.

                                                Objective
        The results of OIG’s work are being reported in two reports. The primary objective of
this review was to determine whether RPSO followed applicable Federal regulations in awarding
and monitoring PEPFAR construction contracts. The previous report focused on the Office of
the U.S. Global AIDS Coordinator’s oversight of PEPFAR construction projects and the transfer
of these projects to host governments.15

                                           Results of Review

Contract Files for PEPFAR Construction Contract Award Actions Were
Incomplete
        RPSO did not comply with FAR or COR Handbook requirements for maintaining
contract files16 to demonstrate that required actions were performed in awarding PEPFAR
construction contracts for three of eight award categories that OIG reviewed. For the 34 contract
files reviewed,17 OIG determined that 18 files were missing required documentation for one or
more of the following award actions:

        Eleven files did not include an IGCE.
        Eight files contained no evidence that the solicitation or requirements were publicized.
15
   Audit of Construction and Transfer of Ownership of the President’s Emergency Plan for AIDS Relief (PEPFAR)

Overseas Construction Projects, AUD/IP-11-14, June 2011. 

16
   FAR 4.801(a) and (b)(1)(2)(3)(4). 

17
   Sixty-six task orders are associated with the 34 contracts. 

                                                  5
                                             UNCLASSIFIED
                                              UNCLASSIFIED



        Ten files did not include a COR delegation memorandum.

         Because RPSO did not always document these contract award actions, the Department
cannot be assured that it obtained a fair and reasonable price from the bidder or offeror or that
the solicitation was adequately publicized to ensure full and open competition. In addition, the
failure to document the delegation of COR duties provides the Department no assurance that the
COR understands his or her responsibilities.

Missing Contract Award Documentation

        RPSO contracting officers did not consistently adhere to the FAR or the COR Handbook
in awarding PEPFAR construction contracts on behalf of the CDC for the following required
actions: preparing an IGCE, publicizing the solicitation and requirements, and delegating COR
responsibilities by memorandum.

        Of the 34 contracts OIG reviewed, totaling $17,492,381, OIG found 18 contracts, valued
at $8,464,199 (or 48.4 percent of the total value), that had documentation missing for one or
more required award actions described as follows:

        Independent Government Cost Estimate – RPSO procurement officials did not ensure
that an IGCE was prepared for nearly one-third (11 of 34) of the PEPFAR construction contracts
they awarded. The FAR18 requires that the COR prepare an IGCE for supplies and services over
the simplified acquisition threshold of $150,000.19 The Department’s guidance in the COR
Handbook states that an IGCE should be prepared by the contracting officer and the COR.
IGCEs are important in establishing a fair price for U.S. Government contracts. The COR
Handbook states that IGCEs are the basis for reserving funds for the contract as part of
acquisition planning and for comparing costs or prices proposed by offerors. It further states that
IGCEs are an objective basis for determining price reasonableness in cases in which one bidder
or offeror responds to a solicitation.

        Publicizing Solicitations and Requirements – OIG found no evidence that RPSO
contracting personnel publicized requirements for eight (24 percent) of 34 contracts awarded, as
required by the FAR.20 Acquisitions between $25,000 and $5 million are subject to some form
of public notification appropriate to local conditions at the overseas post. RPSO procurement
officials stated that they had sent Standard Forms 330, Architect-Engineer Qualifications, to
architects recommended by the post. However, this form is used as part of the evaluation
process and does not constitute proper notification. Sending information only to certain
companies could be viewed as favoring specific vendors and is more likely to subject the
Department to legal action by companies. For public notification, RPSO should have used the
embassy Web site, local advertisement, notification to trade associations, or other methods
appropriate for the post.


18
   FAR 36.203, “Government Estimates of Construction Costs.” 

19
   FAR 2.101 defines the simplified acquisition threshold as $150,000, as of October 1, 2010. The simplified

acquisition threshold at the time of OIG fieldwork was $100,000. 

20
   FAR 5.101(b), “Dissemination of Information – Methods of Disseminating Information.” 

                                                   6
                                              UNCLASSIFIED
                                              UNCLASSIFIED


        COR Delegation – OIG found that RPSO contracting officers had not properly delegated
COR duties for 10 (29 percent) of 34 PEPFAR construction contracts they awarded. Contracting
officers are required to prepare and issue a COR delegation memorandum as part of the award
process in accordance with the COR Handbook.21 CORs are to act as the contracting officers’
authorized representatives for these PEPFAR construction projects, assisting in the
administration of the contract. As such, they should receive a delegation memorandum outlining
their responsibilities at the same time the requirements are initiated, as required by the COR
Handbook.22 However, Department contracting personnel did not always issue delegation
memoranda to the CORs and, in some cases, did not follow up with CORs to ensure signed
memoranda were returned to RPSO for inclusion in the contract files. Properly documenting the
delegation of duties for CORs is important because it certifies that CORs understand their
responsibilities.

Conclusion

        Because RPSO did not always document contract award actions, the Department cannot
be assured that required contract actions were taken for the PEPFAR construction contracts.
Specifically, documentation of procurement actions that establish price, promote competition and
contract transparency, and delineate contract administration roles and responsibilities are
essential to demonstrate the adequacy of the contract award.

        Management Comments to the Finding and OIG Analysis

        A/LM/AQM, in its October 7, 2011 response, disagreed that an IGCE was necessary in
establishing a fair price. A/LM/AQM stated that price reasonableness was established by
contacting three or more contractors and therefore an IGCE was not necessary.

        FAR 36.203 requires that “[a]n independent Government estimate of construction costs
shall be prepared and furnished to the contracting officer at the earliest practicable time for each
proposed contract and for each contract modification anticipated to exceed the simplified
acquisition threshold.” Because the PEPFAR contracts exceeded the simplified acquisition
threshold, IGCEs should have been prepared.23 Further, Department regulations24 require that an
IGCE be prepared “to serve as a basis for comparing costs or prices proposed by offerors” and
the Department’s Overseas Contracting and Simplified Acquisition Guidebook states that one of
the purposes of the IGCE is to determine price reasonableness.

        Recommendation 1. OIG recommends that the Regional Procurement Support Office in
        Frankfurt, Germany, issue instructions for its procurement staff to review active PEPFAR
        construction contract files to determine whether required contract award actions for
        PEPFAR construction contracts were properly performed and documented, including

21
   14 FAH-2 H-143.2(2), “Appointment Procedures.” 

22
   14 FAH-2 H-142, “Responsibilities of the Contracting Officer’s Representative.” 

23
   FAR 2.101 defines the simplified acquisition threshold as $150,000, as of October 1, 2010. The simplified

acquisition threshold at the time of OIG fieldwork was $100,000. 

24
   14 FAH-2 H-351 a (2) and c.


                                                   7
                                              UNCLASSIFIED
                                         UNCLASSIFIED


       obtaining an Independent Government Cost Estimate, publicizing contract solicitations,
       and delegating a contracting officer’s representative. If documentation supporting any of
       these actions is found, it should be included in the respective file.

       Management Response: A/LM/AQM agreed with the recommendation and stated it had
       conducted a complete review of PEPFAR files in January 2011, in response to OIG’s
       preliminary findings, and has added missing documentation to the files.

       OIG Analysis: OIG considers this recommendation resolved and closed because of the
       actions taken by RPSO to implement the recommendation, along with evidence that
       PEPFAR construction contract files have been reviewed and deficiencies pertaining to
       documentation addressed.

Contingency Costs Were Inappropriately Included in Firm-Fixed-Price
Contracts
        Contingency costs of about $2 million were inappropriately included in eight firm-fixed-
price contracts and 30 task orders valued at nearly $30 million out of the 100 contracts and task
orders awarded by RPSO and reviewed by OIG. Because these contingency costs were part of
the overall value of the contract, the funds could be spent without pre-approval from the
Department. As a result, the Department could pay for goods or services it would otherwise not
approve.

Construction Procurements With Contingency Costs

        Of the 100 PEPFAR construction procurements (contracts and task orders) awarded
between FY 2005 and the first quarter of FY 2010 reviewed, OIG found that 38 contracts and
task orders, valued at $29,926,033, inappropriately included contingency costs totaling
$2,126,148. The contracts and tasks orders with inappropriate contingency costs are shown by
country and dollar amount in Table 2.

                      Table 2. Contracts and Task Orders With Inappropriate
                                  Contingency Costs (in U.S. Dollars)
                      Country                Contingency Cost    PEPFAR Amount

                      Tanzania                        964,668           10,027,924
                      Ethiopia                        708,931           13,635,953
                      Uganda                            8,265             204,817
                      Namibia                          29,348             711,511
                      Zambia                          118,748             934,984
                      Mozambique                      194,250            2,500,000
                      Kenya                           101,938            1,910,844

                      Total              $          2,126,148    $      29,926,033

                      Source: OIG-generated from RPSO contract files.


                                              8
                                         UNCLASSIFIED
                                                 UNCLASSIFIED


        A contingency, as described in the FAR 31.205-7, is “a possible future event or condition
arising from presently known or unknown causes, the outcome of which is indeterminable at the
present time.” According to the FAR, contingencies may be included in estimates of future costs
if they “arise from presently known and existing conditions, the effects of which are foreseeable
within reasonable limits of accuracy.” However, effects that cannot “be measured so precisely as
to provide equitable results to the contractor and to the Government” are to be excluded from
cost estimates.

Contingency Costs and Firm-Fixed-Price Contracts

        The director of RPSO stated that the office added funds on contracts for contingencies to
streamline the administrative process, because if additional funds were needed after contract
award, it could take months to get a modification approved. Some contract terms stated that the
contingency funds were to “cover any additional construction effort that is required but could not
be identified in time for inclusion in the solicitation package.” In addition, some task orders
included language about contingency funds, stating that they were for possible construction
revisions during the performance period and were placed in the contract for obligation purposes
only. The contingency cost amount for some contracts was estimated as a percentage of the total
contract value because, at the time of contract award, RPSO contracting officials could not
determine the amount that would be needed. Further, the contract terms did not require any
additional information from the contractor in order for the contractor to request payments for
these contingency funds. For the contract files OIG reviewed that included either contingency
costs or “provisional funds,” OIG found no evidence that, at the time of contract award, the
contingency costs for the PEPFAR construction contracts were for known and existing
conditions.

        According to the FAR,25 a firm-fixed-price contract “provides for a price that is not
subject to any adjustment on the basis of the contractor’s cost experience in performing the
contract. This contract type places upon the contractor maximum risk and full responsibility for
all costs and resulting profit or loss.” The COR Handbook26 states that payment for satisfactory
completion of work is fixed and the contractor receives the pre-negotiated, fixed amount,
regardless of actual costs incurred.” Adding funds to the contract for unknown future costs or
contingencies in essence negates the purpose of a firm-fixed-price contract. In addition, the
contractor may spend contingency funds on goods and services without approval from the U.S.
Government, which could result in the Department paying for goods and services it would
otherwise not approve. Ending the practice of adding contingency costs to firm-fixed-price
PEPFAR construction contracts and reclaiming $2 million in contingency costs inappropriately
included in previous contracts and task orders are appropriate and prudent actions to ensure the
effective use of PEPFAR funding.




25
     FAR 16.202-1. 

26
     14 FAH-2 H-232, “Fixed-Price Contracts.”

                                                      9
                                                 UNCLASSIFIED
                                       UNCLASSIFIED


       Management Comments to the Finding and OIG Analysis

        In its response to OIG’s draft report, A/LM/AQM stated that RPSO required modification
to PEPFAR contracts before contingency funds could be released and this information was
clearly stated in RPSO’s contract documents. However, in some of the contracts OIG reviewed,
the language was unclear regarding how to handle contingencies. For example, in Tanzania, the
language in the contract related to contingencies was confusing to the COR, technical advisor,
and contractor. The technical advisor for the projects OIG reviewed said the language regarding
contingencies was ambiguous and the COR responsible for overseeing the project said that
RPSO procurement staff provided conflicting guidance about how to treat contingency costs.
The contractor on the project was also unclear about how contingencies should be handled
believing that they were entitled to the full amount of the award, including contingencies,
because the award was fixed price.

       Recommendation 2. OIG recommends that the Regional Procurement Support Office in
       Frankfurt, Germany, issue instructions for its personnel to stop the practice of including
       contingency funds in PEPFAR construction contracts unless identified contingencies
       arise from presently known and existing conditions, as described in section 31.205-7 of
       the Federal Acquisition Regulation.

       Management Response: A/LM/AQM agreed with the recommendation and stated
       RPSO issued informal guidance to staff about contingencies after OIG’s visit to RPSO.

       OIG Analysis: OIG considers this recommendation resolved because RPSO has taken
       steps to address the recommendation; however, this recommendation will remain open
       until RPSO provides evidence that personnel have received guidance about the proper
       application of contingency costs.

       Recommendation 3. OIG recommends that the Regional Procurement Support Office in
       Frankfurt, Germany, review existing PEPFAR construction contracts and reclaim any
       contingency costs inappropriately included in contracts as practicable.

       Management Response: A/LM/AQM agreed with the recommendation and stated
       RPSO Frankfurt has used change orders to modify contracts that contained contingency
       costs or has deobligated the contingency costs from PEPFAR construction contracts.

       OIG Analysis: OIG considers this recommendation resolved because RPSO has taken
       steps to implement it; however, this recommendation will remain open until RPSO
       provides evidence that PEPFAR construction contracts containing contingency costs have
       been modified or contingency costs deobligated for the award actions OIG reviewed.

Incomplete Contract Monitoring Leaves PEPFAR Construction Projects at
Risk
     At two of the three posts OIG visited—Tanzania and Uganda—OIG reviewed 22
PEPFAR contract files related to actual construction, 18 in Tanzania and four in Uganda, that did
                                               10
                                       UNCLASSIFIED
                                               UNCLASSIFIED


not always contain adequate documentation of required monitoring actions.27 Specifically, eight
of the 18 COR contract files reviewed in Tanzania lacked evidence to show that CORs obtained
inspection reports from independent CMS contractors. Additionally, the inspection reports that
were included in the files in Tanzania and Uganda did not always include the detailed
information required by the contract terms. In Tanzania, three of 18 files also did not contain
evidence showing that site visits were being conducted. OIG also found that 12 of the 38
construction and construction-related contract files OIG reviewed in Tanzania (see Table 1) did
not contain evidence showing that progress payments had been reviewed. In Ethiopia, however,
an engineer with technical construction expertise was hired to handle most of the monitoring
functions for the U.S. Government, which resulted in better recordkeeping and more effective
oversight.

       The FAR28 requires that contract files contain all pertinent contract actions. Therefore,
the contracting officers at RPSO were ultimately responsible for ensuring that contract files
contained evidence of monitoring efforts, but they did not always provide adequate oversight of
CORs to ensure these activities were documented. As a result, the U.S Government cannot be
assured that construction always followed design specifications and met quality standards.

Monitoring Requirements

        The COR Handbook29 states:

        To assure performance of a contract in the manner most beneficial to the U.S.
        Government, the U.S. Government has the responsibility to actively watch and
        follow the contractor's performance and take prompt, affirmative action to correct
        problems. This is one of the most vital elements of what is called ‘contract
        administration,’ i.e., making sure that the terms and conditions agreed upon when
        the contract was awarded are actually carried out.

        As part of contract administration, CORs are required to “maintain a file documenting
significant actions and containing copies of trip reports, correspondence, and reports and
deliverables received under the contract.”30

Contract Monitoring in Ethiopia

       OIG found that Ethiopia had proper documentation to show consistent monitoring,
including very detailed records of monitoring activities for the eight construction files reviewed.
For example, the CMS contractor monitored construction by employing a resident employee, or
“resident engineer,” who was on- site and worked the same hours as the construction
contractor.31 On a daily basis, the resident engineer monitored and recorded the number and type

27
   Of the 100 PEPFAR construction contract files OIG reviewed, 14 were in Ethiopia, 38 were in Tanzania, and 

seven were in Uganda. Of these files, 29 were for CMS or design services, and 30 were for construction activities. 

28
   FAR 4.801(a) and (b)(1)(2)(3)(4). 

29
   14 FAH-2 H-511(a), “Administration.” 

30
   14 FAH-2 H-513c(2), “The Contracting Officer’s Representative’s (COR) Role in Contract Administration.” 

31
   A resident engineer is an on-site monitor employed by the CMS contractor. 

                                                    11
                                               UNCLASSIFIED
                                       UNCLASSIFIED


of workers, on-site equipment, type and amount of work performed, and other information and
activities. Reports that included this information were prepared daily and signed by the resident
engineer and construction contractor. Daily reports were subsequently incorporated into monthly
progress reports provided to the COR.

       In addition, the COR in Ethiopia had an engineer with technical construction expertise to
oversee and work closely with the CMS contractor to ensure that the contract requirements were
met and construction project progressed as expected.

Contract Monitoring in Tanzania and Uganda

        At two posts OIG visited—Tanzania and Uganda—OIG found that CORs did not obtain
adequate documentation from CMS contractors of construction monitoring activities.
Specifically, eight of 18 PEPFAR construction contract files reviewed in Tanzania contained no
evidence that inspection reports were obtained, and the remaining files often did not include all
of the elements required under the terms of the contract. Although the four construction contract
files reviewed in Uganda contained one inspection report for each project under construction, the
files did not include all of the required monthly reports, and the single report obtained for each
project did not include the detailed information required under the terms of the contract. Three
of 18 contract files reviewed in Tanzania did not contain evidence to show that CORs had
conducted site visits. In addition, 12 of the 38 construction and construction-related contract
files OIG reviewed in Tanzania contained no evidence showing that progress payments had been
reviewed.

        Inspection Reports – Although required, CMS contractors did not provide inspection
reports to the COR for eight of 18 construction contract files in Tanzania. OIG also found that
the inspection reports were received sporadically, although the contract terms generally required
reports to be submitted monthly. The inspection reports that the CORs received in Tanzania and
Uganda did not always address inspection elements required by the contract, such as the date and
time of the inspection, individuals met on-site the day of inspection, workers present, and any
items found to be deficient. Each deficient item should include a description and explanation
(cause) of the deficiency, the impact or consequences, recommended corrective action, and
potential hazards.

        CMS contractors were required to carry out and document inspections to determine
whether services were performed according to the contract requirements and provide copies of
inspection reports to the COR. In accordance with the COR Handbook,32 the COR must ensure
that the contractor complies with reporting provisions in the contract. The COR Handbook also
states that the “COR must read and understand the progress reports to identify and initiate steps
to deal with any threats to performance that they may disclose.”

       However, in Uganda, the COR received only one combined inspection report for all four
ongoing projects from the CMS contractor in March 2010, even though the CMS contractor
should have been monitoring the projects for 5 months beginning in October 2009 and sending

32
     14 FAH-2 H-522.2, “Reports.”
                                            12
                                       UNCLASSIFIED
                                         UNCLASSIFIED


monthly reports to the COR. Prior to OIG’s site visit to Tanzania, the COR made a special effort
to obtain CMS inspection reports for the construction contract files but received reports for only
six of 18 contracts.

         Site Visits – OIG found that three of 18 construction procurement files in Tanzania did
not contain evidence of any COR site visits. Although Uganda’s files showed at least one COR
site visit report for each of the four ongoing projects, the files were missing reports for dates site
visits were indicated to have occurred, as noted in the files. In accordance with the COR
Handbook,33 CORs are required to conduct site visits to check a contractor’s actual performance
against the contractor’s reported performance. In addition, physical on-site visits provide
assurance that the contractor is performing work as expected.

        Progress Payment Reviews – OIG found that 12 of 38 construction and construction-
related COR contract files in Tanzania did not contain evidence that CORs were reviewing
progress payment requests. CORs are required to review contractor invoices prior to payment to
ensure that costs are valid and to compare claimed costs against actual progress. According to
the COR Handbook34 CORs are responsible for “monitoring the contractor's technical progress
and the expenditures of resources relating to the contract.”

Responsibility for Contract Monitoring

        In practice, RPSO contracting officers are primarily involved in the solicitation and
award of procurements; CORs perform day-to-day contract monitoring after the award.
However, RPSO contracting officers are ultimately responsible for contract monitoring because
they are required to assess whether contractor performance is satisfactory.35

         RPSO contracting officers stated that they are not responsible for ensuring that CORs
properly monitor construction projects, but rather this is the responsibility of program officials or
the CMS contractor. RPSO contracting officers said they tend to get involved with CORs only
when specifically requested or when the contract needs to be modified. Some of RPSO’s
contract files that OIG reviewed included copies of progress reports and site visits for PEPFAR
construction projects. However, these documents were not always included in RPSO’s contract
files or the COR’s contract files at post.

        RPSO contracting officers stated that many CORs monitoring PEPFAR construction
contracts were CDC medical professionals who often were not experienced in monitoring
construction contracts. However, because RPSO contracting officers and contract specialists
were aware of this limitation, they should have been even more involved with the CDC-
designated CORs to ensure that proper procedures were followed. The director of RPSO
acknowledged that CORs from the CDC would benefit from hiring engineers to confirm before
payment whether buildings were completed according to specifications. However, at two posts
with substantial construction (Tanzania and Uganda), there was no engineer on-site to perform
this task.
33
   14 FAH-2 H-522.3, “Site Visits.”
34
   14 FAH-2 H-142b(7).
35
   14 FAH-2 H-513a.
                                              13
                                         UNCLASSIFIED
                                        UNCLASSIFIED




         The U.S. Government cannot be assured that PEPFAR facilities in Tanzania and Uganda
were properly constructed or monitored. At one location in Tanzania, a site where a PEPFAR
facility was to be built had previously been a trash dump. The original design contractor did not
perform an environmental scan of this location, which would have likely been uncovered through
effective monitoring. At another PEPFAR–constructed facility in Uganda, the contractor had
completed renovating a laboratory to be used for treating tuberculosis patients but did not install
a key piece of equipment required to operate the laboratory—a negative air pressure system.
This system is required to meet international accreditation standards and is used to prevent the
dispersion of microbial pathogens from contaminated areas. CDC personnel told OIG that,
before they could open the lab, they would require an additional $70,000 to $80,000 to obtain
and install the system. In addition, without evidence of progress payment reviews, contractors
may be paid for work that may not have been actually completed, and the U.S. Government is
not assured that constructed facilities meet design specifications.

       Recommendation 4. OIG recommends that the Regional Procurement Support Office in
       Frankfurt, Germany, issue instructions for its procurement staff to fully document
       contract monitoring to assess whether contractor performance is satisfactory.

       Management Response: A/LM/AQM agreed with the recommendation and stated
       RPSO Frankfurt “…will provide additional guidance to CORs emphasizing the need to
       maintain adequate contract files on contract monitoring.”

       OIG Analysis: OIG considers this recommendation resolved because A/LM/AQM has
       agreed to take necessary steps to implement it; however, this recommendation will
       remain open until RPSO provides evidence that CORs responsible for PEPFAR
       construction contracts have received additional guidance about maintaining contract
       monitoring files.

       Recommendation 5. OIG recommends that the Regional Procurement Support Office in
       Frankfurt, Germany, require posts with substantial planned costs for PEPFAR
       construction projects to obtain a technical advisor with construction expertise for
       monitoring construction contracts.

       Management Response: A/LM/AQM agreed with “…the concept of posts obtaining a
       technical advisor with construction expertise for monitoring construction contracts” but
       stated that RPSO Frankfurt cannot require CORs to hire a technical advisor. However,
       A/LM/AQM stated that RPSO Frankfurt will augment guidance to its customers,
       emphasizing ways to improve contract monitoring.

       OIG Analysis: OIG considers this recommendation resolved because A/LM/AQM has
       agreed to take steps to improve technical oversight of PEPFAR construction contracts;
       however, this recommendation will remain open until RPSO provides evidence that that
       additional guidance emphasizing ways to improve contract monitoring has been
       disseminated.


                                             14
                                        UNCLASSIFIED
                                            UNCLASSIFIED



             Best Practice – Standard Design for PEPFAR Construction
        At the outset of his administration, President Obama stated that the U.S. Government
needed to work better, faster, and more efficiently. The Tom Lantos and Henry J. Hyde United
States Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of
200836 reauthorized PEPFAR funding for FY 2009 and required, among other items, that a best
practices report be disseminated. In addition, on September 14, 2010, the President’s
Management Council—a group of Federal agency Deputy Secretaries overseeing the President’s
efficiency goals—stated that the Council is “pursuing a management agenda that embraces
technological innovations and management best practices to improve effectiveness, efficiency,
and customer service.”37

        OIG noted a best practice of using standard design to construct PEPFAR facilities in
Tanzania and Ethiopia. If implemented more widely, this best practice could reduce costs and
project completion times for PEPFAR construction.

Standard Design

        The CDC has plans to construct approximately 90 medical facilities. Most buildings
constructed for PEPFAR are medical facilities, including laboratories and outpatient health
clinics. In Tanzania, the CDC hired consultants to analyze planned projects, and these
consultants recommended using standard design. In Ethiopia, the CDC is building seven
regional laboratories using the same design. The advantages of using standard design are
described in “Best Practice – Standard Design.”




36
   Section 205 of the Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS, 

Tuberculosis, and Malaria Reauthorization Act of 2008 (Pub. L. No. 110-293 § 205).

37
   Memorandum for the Senior Executive Service, “The Accountable Government Initiative – an Update on Our 

Performance Management Agenda,” Office of Management and Budget, September 14, 2010. 


                                                 15
                                            UNCLASSIFIED
                                        UNCLASSIFIED





                               Best Practice - Standard Design

In Tanzania, the Centers for Disease Control and Prevention (CDC) currently has five standard
designs ranging from small to supersize. CDC Tanzania has engaged architectural services to
use standard design to build four care and treatment centers with 13 rooms and three care and
treatment centers with 11 rooms. These clinics have standardized layout, roofing, walls,
security, plumbing, and electrical requirements. CDC Tanzania also engaged architectural
services to use a standard design to renovate 11 one-room tuberculosis clinics. This standard
design turned the one-room clinics into six-room clinics, with installed plumbing; wiring for
computers, phones, and fans; and a layout to accommodate patient confidentiality and patient
flow.

In Ethiopia, the CDC is building seven regional laboratories using the same design. The
design requirements include safety protection, radio frequency shielding, seismic
consideration, utility and drainage systems, and water treatment. The standard design makes it
easier to modify existing laboratories and easier to transfer modifications to future project
designs. Even where standard design is not used, such as for outpatient annexes in various
sizes, project materials come from a standardized set of specifications. To further its standard
design efforts, CDC Ethiopia issued a scope of work order for design work at medical facilities
seeking an integrative prototype outpatient department model.

Using standard design includes the following advantages:
    Cost savings from minimizing architectural services.
    Shortened time of project from site selection to project completion because individual
       project architectural analyses and drawings are not needed. The Department recorded a
       34 percent shorter project duration in its first year using standard design for embassies.
    Reduction in project error because approved designs are repeated.
    Incorporation of specific expertise that might not be available through local architects
       into standard design.
    Ease of monitoring and assessing the progress and quality of construction.
    Shorter learning curve for contractors bidding to build the facilities.
    Ability to standardize laboratory equipment—changing the design of the laboratories
       makes it more difficult to coordinate the various types and location of equipment in
       laboratories.  




                                             16
                                        UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Regional Procurement Support Office in
Frankfurt, Germany, issue instructions for its procurement staff to review active PEPFAR
construction contract files to determine whether required contract award actions for PEPFAR
construction contracts were properly performed and documented, including obtaining an
Independent Government Cost Estimate, publicizing contract solicitations, and delegating a
contracting officer’s representative. If documentation supporting any of these actions is found, it
should be included in the respective file.

Recommendation 2. OIG recommends that the Regional Procurement Support Office in
Frankfurt, Germany, issue instructions for its personnel to stop the practice of including
contingency funds in PEPFAR construction contracts unless identified contingencies arise from
presently known and existing conditions, as described in section 31.205-7 of the Federal
Acquisition Regulation.

Recommendation 3. OIG recommends that the Regional Procurement Support Office in
Frankfurt, Germany, review existing PEPFAR construction contracts and reclaim any
contingency costs inappropriately included in contracts as practicable.

Recommendation 4. OIG recommends that the Regional Procurement Support Office in
Frankfurt, Germany, issue instructions for its procurement staff to fully document contract
monitoring to assess whether contractor performance is satisfactory.

Recommendation 5. OIG recommends that the Regional Procurement Support Office in
Frankfurt, Germany, require posts with substantial planned costs for PEPFAR construction
projects to obtain a technical advisor with construction expertise for monitoring construction
contracts.




                                             17
                                        UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                 Appendix A
                                       Scope and Methodology
       The purpose of this review was to assess Department of State (Department) effectiveness
in awarding and monitoring contracts supporting President’s Emergency Plan for AIDS Relief
(PEPFAR) projects. The primary objective of this review was to determine whether the
Department followed applicable policies, regulations, and procedures in awarding and
monitoring PEPFAR construction projects.

       To obtain an understanding of laws and regulations related to the award and monitoring
of overseas construction and construction-related activities, the Office of Inspector General
(OIG) reviewed the Federal Acquisition Regulation (FAR), the Foreign Affairs Manual, the
Foreign Affairs Handbook, Department of State Acquisition Regulations, and the Overseas
Contracting and Simplified Acquisition Guidebook.

         OIG also searched the Internet and the Department’s Web site for information relevant to
the construction industry, Federal construction contracting, and the construction of health care
facilities. OIG obtained and reviewed documents from the Department and the Centers for
Disease Control and Prevention that explained the PEPFAR overseas construction process and
procedures, as well as information about issues affecting the procurement process.

       OIG met with key personnel from the Office of the U.S. Global AIDS Coordinator and
the Bureau of Administration to discuss their roles and understanding of PEPFAR overseas
construction projects.

        OIG’s Office of Audits conducted this review from January 2010 to January 2011 in
accordance with the Quality Standards for Inspections, issued in January 2005 by the Council of
the Inspectors General on Integrity and Efficiency.

Contract Files Reviewed and Sites Visited

        During this review, OIG visited the Regional Procurement Support Office (RPSO) in
Frankfurt, Germany, from January to February 2010 to obtain an understanding of RPSO’s
contract award and monitoring processes. OIG also developed a list, using contract files, of all
PEPFAR overseas construction projects awarded by RPSO from FY 2003 through the first
quarter of FY 2010 to nine African countries: Tanzania, Ethiopia, Uganda, Namibia, Zambia,
Mozambique, Kenya, Botswana, and Malawi. OIG’s list showed that RPSO awarded 145
contracts and task orders, valued at $56,009,736, during the period to these nine countries. Of
the 145 contracts and task orders, 99 contracts and task orders (68 percent), totaling $43,300,994,
were awarded to Tanzania, Ethiopia, and Uganda. OIG focused its review on contracts and task
orders that were awarded from FYs 2007–2009, although five of the 100 contracts reviewed
were not awarded during that time period,1 thereby narrowing the scope from 145 contracts and

1
 These five contracts consisted of two contracts awarded in FY 2005, two contracts awarded in FY 2006, and one
contract awarded in FY 2010.
                                                  18
                                             UNCLASSIFIED
                                              UNCLASSIFIED

task orders to 100, as shown in Table 1. These 100 files contained 34 contracts (21 firm-fixed-
price contracts and 13 indefinite delivery/indefinite quantity contracts) and 66 associated task
orders, all of which totaled $39,207,381.

  Table 1. Total PEPFAR Overseas Construction Procurements, FY 2003 – FY 2010
        Country            Awarded by RPSO           Reviewed by OIG at RPSO        Reviewed by OIG at Post
                         Number      Value in U.S.    Number        Value in U.S.    Number      Value in U.S.
                        of Items*       Dollars       of items        Dollars        of items      Dollars
    Tanzania                   58      22,276,299            52       11,991,137            38      7,275,944
    Ethiopia                   22      16,274,205            14       15,865,597            14     15,865,597
    Uganda                     19       4,750,490            17        2,980,433             7      2,475,443
         Subtotal              99      43,300,994            83       30,837,167            59     25,616,984
    Percent of Totals          68               77           83                79          100             100
    Namibia                    12       3,320,025             5         1,805,691           -                -
    Zambia                     12       3,299,140             3         1,141,687           -                -
    Mozambique                  3       2,821,880             3         2,821,880           -                -
    Kenya                      11       2,813,360             4         2,321,640           -                -
    Botswana**                  6         279,316             2           279,316           -                -
    Malawi                      2         175,021             -                 -           -                -
        Subtotal               46      12,708,742            17         8,370,214           -                -
    Percent of Totals          32              23            17                21           -                -
         Totals               145    $ 56,009,736           100      $ 39,207,381          59     $ 25,616,984
    Percent of Totals         100             100            69                70          59               65
    Source: OIG-generated from RPSO contract files.
    *The number of items includes contracts and task orders.
    ** Although OIG verified that RPSO awarded six contracts for Botswana, OIG was unable to determine the
funding source for four of the contracts. Therefore, the dollar amounts for those four contracts have not been
included.

       At RPSO, OIG reviewed the 100 files to determine whether the files contained the
required documentation to show that procurement personnel followed Federal laws and policies
in awarding and monitoring these contracts and their associated task orders. In addition, OIG
assessed whether the contract files contained documentation to show that RPSO provided
oversight for the PEPFAR construction projects.

       OIG then selected Tanzania, Ethiopia, and Uganda for site visits conducted in April and
May 2010 because these three countries were the chief beneficiaries of PEPFAR construction
procurements, as indicated above in Table 1. They had 83 procurements related to PEPFAR
construction projects valued at $30,837,167 (or 79 percent of the total $39,207,381) for the
period FY 2007 through FY 2009. At these three posts, OIG reviewed 59 of the 83 (or 71
percent) COR files, valued at $25,616,984, to determine whether the files contained adequate
evidence of monitoring, such as inspection reports, site visit reports, and progress payments with
required acceptance and approval.



                                                   19
                                              UNCLASSIFIED
                                            UNCLASSIFIED

       OIG interviewed contracting officer’s representatives, construction monitoring services
personnel hired by RPSO, and host country officials overseas to gain an understanding of their
procedures for monitoring construction projects and to determine the extent of coordination with
contracting officers at RPSO. OIG also visited nine construction sites in various phases of
construction, including two completed facilities. At these sites, OIG observed the level of
progress on construction projects and methods used to monitor construction. OIG also gained an
understanding of the services to be provided and any problems or delays encountered. The
construction sites OIG visited in each country are shown in Table 2.

       Table 2. PEPFAR Construction Sites Visited
                         National Headquarters and Zonal Blood Transfusion Center 
            Tanzania     Temeke Hospital Ward 
                         Tandale Care and Treatment Clinic 
                         Zewditu Hospital Health Clinic, ART Treatment
            Ethiopia     Adama Hospital Regional Blood Bank Laboratory
                         Armed Forces Hospital Health Clinic, VCT/ART
                         Uganda Blood Transfusion Services
            Uganda       Mukono Health Center IV
                         National TB & Referral Laboratory
         Source: OIG-generated.

       After its site visits, OIG reviewed and materials obtained from RPSO and COR files to
determine whether these files were complete and to identify discrepancies needing resolution.
Subsequently, in January 2011, OIG requested and obtained from RPSO additional information
and responses that addressed contract award issues and answers to its questions resulting from its
review of procurement documents. OIG analyzed the additional information provided and
adjusted its results accordingly.

Data Reliability and Use of Computer-Processed Data

         OIG obtained from RPSO’s database a list of PEPFAR construction procurements.
RPSO developed this database as a separate log to track procurements by year. OIG compared
the list generated from the RPSO database with information contained in RPSO files to verify the
completeness of the list. OIG believes that the data was sufficiently reliable for purposes of its
report and that the evidence obtained provides a reasonable basis for the findings and
conclusions based on the review objective.

Prior OIG Reports

      In June 2011, OIG reported 2 that the Department’s Office of the U.S. Global AIDS
Coordinator (S/GAC) coordinated, provided oversight for, and transferred PEPFAR overseas

2
 Audit of Construction and Transfer of Ownership of the President’s Emergency Plan for AIDS Relief (PEPFAR)
Construction Projects, AUD/IP-11-14, June 2011.
                                                 20
                                            UNCLASSIFIED
                                        UNCLASSIFIED


construction projects on an ad hoc basis. In addition, S/GAC did not establish effective internal
controls for PEPFAR construction projects and did not properly transfer completed construction
projects to host governments. OIG made four recommendations for S/GAC (1) to develop an
interagency memorandum of agreement to address the PEPFAR overseas construction projects,
(2) to seek resolution about the legal dispute on construction authority with senior-level
management within the Department of Health and Human Services (HHS), (3) to appoint a
senior-level official with the requisite experience in construction and authority to make decisions
related to PEPFAR overseas construction projects, and (4) to establish guidance for all agencies
involved with PEPFAR overseas construction projects that clearly describes procedures for
construction and property management.

       The second recommendation, which pertained to the legal dispute, was closed because
S/GAC immediately took action to reclaim and redistribute $51 million in PEPFAR construction
funds provided to HHS and the U.S. Agency for International Development—thus eliminating
the need for resolution of the legal dispute with HHS. The remaining three recommendations are
resolved because S/GAC has taken action to implement them. They can be closed when OIG
receives and accepts documentation showing that they have been implemented.




                                             21
                                        UNCLASSIFIED
                                 UNCLASSIFIED




                                                                                     Appendix B



                                                 United States
                                                        StatE" Department of State
                                                 Washington , D. C. 20520

                                                 October 7,2011

UNCLASSIFIED
MEMORANDUM

TO:          OIG// AUD - Evelyn R. K1emstine
             OIG

FROM:         Catby Rea~MlAQM
              Cathy

SUBJECT: Response to ~r::1t·
                     ~r~· Report on Improved Contract Documentation and
         Monitoring by the
                        tbe Regional Procurement Support Office Are Needed
         for Construction Projects Associated with
                                              witb the
                                                   tbe President's Emergency
         Plan for AIDS Relief (PEPFAR)

The following are the Office of Acquisitions Management (AILMlAQM)
comments on Recommendations 1I tbrough 5 and technical comments of the
subject Audit Report.

Recommendation 1 . OIG recommends tbat  that tbe
                                             the Regional Procurement Support
Office in Frankfurt, Gennany,
                     Germany, issue instructions for its procurement staff to review
active PEPF AR construction contract files to determine whether required contract
award actions for PEPFAR construction contracts were properly perfonned and
documented, including obtaining an Independent Govermnent
                                                   Government Cost Estimate,
publicizing contract solicitations, and delegating a contracting officer
                                                                 officer's
                                                                         's
representative. If documentation supporting any of these actions is found
                                                                      found,, it
should be included in tbe
                       the respective file .

AlLMlAQM's Response: AlLMlAQM concurs with          witb this recommendation.
RPSO Frankfurt issued infonnal
                         informal guidance and discussed repeatedly in staff
meetings to review active PEPF AR construction contract files for completeness.
RPSO Frankfurt publicizes construction contracts on the Berlin embassy website
and with
    witb local construction companies tbat
                                         that are recommended by the client. For A
& E contracts, restricting advertisement to the
                                             tbe Berlin embassy website will exclude
notifying qualified and registered companies in the country where work is going to
be performed
   performed.. Competition was sought and achieved tbrough wide distribution to
                              the applicable countries. Based on OIG findings, a
known architecture firms in tbe




                                      22 

                                 UNCLASSIFIED
                                   UNCLASSIFIED





complete review of all PEPFAR files was conducted in January 2011 and
appropriate missing documentation has been added to lbe
                                                    the file.

Recommendation 2. OIG recommends lbat    that the Regional Procurement Support
Office in Frankfurt, Germany, issue instructions for its personnel to stop the
practice of including contingency funds in PEPF AR construction contracts unless
identified contingencies arise from presently known and existing conclitions,
                                                                   conditions, as
described in section 31.205-7
                     31 .205-7 of lbe
                                  the Federal Acquisition Regulation.
                                                          Regulation.

AlLMlAQM's Response: AlLMlAQM concurs with            wilb this recommendation
                                                                recommendation..
RPSO Frankfurt issued informal
                          infortnal guidance repeatedly in staff meetings since the
~iG's original visit. RPSO Frankfurt will periodically remind staff about
OIG's
contingency funds in construction contracts. RPSO Frankfurt notes lbat   that in a firm ­-
fixed contract   the inclusion of risk in a contractor
      contract,, lbe                        contractor's
                                                       's proposal (sometimes referred
to as a contingency) is allowable
                         allowable.. In cases where risk is already priced and a
separate line item for contingencies is identified, RPSO staff will not include lbese
                                                                                    these
costs unless lbey
             they are in accordance wilb
                                       with FAR 31 .205-7 .

Recommendation 3. OIG recommends lbat   that lbe
                                             the Regional Procurement Support
                     Gertnany, review existing PEPFAR construction contracts and
Office in Frankfurt, Germany,
reclaim any contingency costs inappropriately included in contracts as practicable
                                                                       practicable..

AlLMlAQM's Response: RPSO Frankfurt employed lbis                               ~IG's
                                                         this practice prior to ~iG  's
audit and will continue lbis
                        this practice. All such costs identified from lbe
                                                                       the PEPF AR
construction contracts were modified via valid change orders (including
                                                                (inclucting requests
for equitable adjustments) or deobligated from the contract.

Recommendation 4. OIG recommends lbat     that the Regional Procurement Support
Office in Frankfurt ,.Germany,, issue instruction for its procurement staff to fully
           Frankfurt,.Germany
document contract monitoring to assess whelber
                                          whether contractor performance is
satis
satisfactory.
      factory.

AlLMlAQM's Response: RPSO Frankfurt will provide additional guidance to
CORs emphasizing the need to maintain adequate contract files on contract
monitoring. RPSO Frankfurt documents the Contracting Officer's file for past
performance as required by lbe
                           the FAR.

Recommendation 5. OIG recommends lbat    that lbe
                                              the Regional Procurement Support
          Frankfurt,, Germany
Office in Frankfurt   Germany,, require posts wilb
                                              with substantial planned costs for




                                        23 

                                   UNCLASSIFIED

                                UNCLASSIFIED





PEPFAR construction projects to obtain a technical advisor with construction
expertise for monitoring construction contracts.

AILMlAQM's Response: NLMlAQM
AlLMlAQM's                   NLMJAQM agrees witb with the concept of posts obtaining
a technical advisor with construction expertise for monitoring construction
contracts. RPSO Frankfurt recommends to all PEPFAR clients to hire a technical
advisor and issues IDIQ contracts to A&E firms
                                           fIrms to perform construction
monitoring services to assist posts. RPSO Frankfurt cannot require that customers
obtain a technical advisor if the
                              tbe COR believes sufficient expertise is already
available to monitor the program. RPSO Frankfurt will augment guidance to
construction customers to emphasi
                          emphasize
                                  ze various ways to improve contract monitoring
to include better monitoring documentation and more effective use of
                                                                  oftechnical
                                                                     technical
support.

AlLMlAQM's technical corrections to tbe
AILMlAQM's                              the draft OIG report: RPSO Frankfurt
respectfully submits the
                     tbe following recommended changes to the draft report text:

Page 6 - " the
           tbe Department cannot be assured tbat
                                            that it obtained a fair and reasonable
price from the bidder or offeror" -

AILMlAQM's
AlLMlAQM's comments: RPSO Frankfurt submits that adequate competition
was always received.
            received. Three or more contractors were contacted in all cases for all
                                                                                aU
contracts awarded. Price reasonableness is then established by competitive price
comparison.

Page 6 - "IGCEs are important in establishing a fair price for U.S. Go vernment
                                                                    Government
contracts. "
           "

AlLMlAQM's comments: RPSO Frankfurt submits that in accordance with FAR
AILMlAQM's
15.402 and 15.404-1 adequate price competition establishes price reasonableness.
                                                                 reasonableness.
Therefore, in cases where an IGCE was not provided by post, adequate price
competition was received by three or more firms
                                          fIrms and thus
                                                    tbus price reasonableness was
established. IGCEs are useful to perform price analysis when competition is
lacking.

Page 7 - "Because these contingency costs were part of the overall value of the
contract, the
          tbe funds could be spent without pre-approval from the Department."

AlLMlAQM's     comments: RPSO Frankfurt submits that the above statement is
AILMlAQM's commeots:
inaccurate. Obligated dollars tbat                the contract in tbis
                              that were placed on tbe             this capacity were




                                     24 

                                UNCLASSIFIED

                                 UNCLASSIFIED





specifically excluded from the firm fixed price
                                           price.. Additionally, in order for the
contractor to utilize these funds a formal modification, authorizing specific
                                                                      speci fic work to
the contract, was required.

Page 8 - " Further ,the contract terms did not require any additional information
from the contract in order for the contractor to request payments for these
contingency funds."

AlLMlAQM's comments: RPSO Frankfurt submits when a contingency or
                                                             written
provisionall sum was placed on an award it was specifically wr
provisiona                                                      itten in the award
that the funds associated with those line items could only be utilized upon a formal
                                                                               formal
contract modification that incorporated them into the firm fixed price
                                                                   price..

Page 9 - similar statement about the contractor being able to spend these monies
without prior approval.

AlLMlAQM's comments: RPSO Frankfurt reasserts our above two comments
wruch
which are applicable to thls
                        this portion of the report.

Page 12 - "RPSO contract ing officers stated that they are not responsible for
                 contracting
ensuring the CORs properly monitor construction projects"

AlLMlAQM's comments: AlLMlAQM advises that Contracting Officers appoint
CORs and are responsible to ensure they fulfill their duties
                                                      duties.. RPSO Frankfurt relies
heavily on the CORs to monitor their projects.




                                      25 

                                 UNCLASSIFIED

                          UNCLASSIFIED





Drafted:   AlLM: Mark Bohac x5-5840

Cleared:
           AlLMlAQMIWWD:
           NOPE:
           NFO
           NFO:: _




                               26 

                          UNCLASSIFIED

                                  UNCLASSIFIED





Major Contributors to This Report
Naomi Snell, Director
International Programs Division
Office of Audits

Barbara Ferris, Audit Manager
International Programs Division
Office of Audits

Sharon Richards, Auditor
International Programs Division
Office of Audits

Cristina Ward, Auditor
International Programs Division
Office of Audits

Doug Hundley, Auditor
International Programs Division
Office of Audits




                                       27
                                  UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

